                       U.S. Department of Agriculture

                          Office of Inspector General
                                      Midwest Region




             Audit Report

     Bellwood SFA’s Administration of
    the National School Lunch Program

.




                                         Report No.
                                     27010-0016-Ch
                                     December 2003
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                        Midwest Region - Audit
                                   111 North Canal Street, Suite 1130
                                         Chicago, Illinois 60606


DATE:          December 3, 2003

REPY TO
ATTN. OF:      27010-16-Ch

SUBJECT:       Bellwood SFA’s Administration of the National School Lunch Program

TO:            Ollice C. Holden
               Regional Administrator
               Food and Nutrition Service
               77 West Jackson Boulevard, 20th Floor
               Chicago, IL 60604

ATTN:          Frank Suchy
               Chief Fiscal/State Systems

This report presents the results of our audit of the Bellwood SFA’s Administration of the
National School Lunch Program. The Food and Nutrition Service’s response to the official draft,
received November 14, 2003, is included in its entirety as exhibit D, with excerpts and the Office
of Inspector General’s position incorporated into the Findings and Recommendations section of
the report.

Based on the information contained in your response, we have reached management decisions on
all Recommendations Nos. 1 through 14 in the report, and therefore no further correspondence
with our office is necessary. However, please follow your agency’s internal procedures in
forwarding documentation for final actions to the Office of the Chief Financial Officer. In
accordance with Department Regulation 1720-1, final action is to be taken within 1 year of each
management decision.

If you have any questions please have a member of your staff contact Dennis J Boedigheimer,
Assistant Regional Inspector General, at 353-1356.

/S/
EDWARD R. KRIVUS
Regional Inspector General

Attachment

cc: Office of the Chief Financial Officer
    (w/attachment and a copy of
     above-mentioned memorandum)

   Stephen Fowkes, Director
   Food and Marketing Division
Executive Summary
Bellwood SFA’s Administration of the National School Lunch Program

Results in Brief    Through a written agreement with the Illinois State Board of Education, the
                    Bellwood School Food Authority (SFA) administers the National School
                    Lunch Program (NSLP) for seven schools in Bellwood, Illinois. Our audit
                    disclosed serious deficiencies in the Bellwood SFA’s administration of the
                    NSLP, ranging from its oversight of menu planning and meal counting
                    procedures at individual schools to its procurement of goods and services for
                    the food service program.

                    We determined that the SFA improperly claimed over 71,911 meals during
                    school years 2002 and 2003. We found that applications were not maintained
                    for every meal claimed as free or reduced-price and the meal counting
                    systems did not yield accurate totals. We also found that the SFA’s milk
                    purchases were inconsistent with providing a nutritious meal to every eligible
                    student. We attributed these violations to the SFA not understanding
                    important NSLP requirements regarding: the retention of free and reduced-
                    price applications, the need to serve a well-balanced meal that included milk,
                    and conducting effective oversight reviews of its schools lunch service. As a
                    result, we questioned $136,138 in NSLP reimbursements.

                    We also determined that the SFA’s procurement procedures did not comply
                    with Federal or State requirements. The procurement of vended meal
                    services in school year 2003, restricted competition by placing unreasonable
                    and unnecessary requirements on potential bidders. For procurement actions
                    in school year 2002, the SFA did not maintain documents, such as bid
                    requests and school board meeting minutes in approving and awarding the
                    bid. As a result, the SFA spent over $600,000 in NSLP funds to pay for
                    goods and services that may not have been the lowest responsive and
                    responsible bidder.

Recommendations
In Brief            We recommend that the Food and Nutrition Service require the State agency
                    to institute a claim against the SFA for the $136,138 it received as
                    reimbursement for meals it could not support or that did not meet with NSLP
                    requirements. We also recommend that the State agency ensure that the SFA
                    establishes controls and implements adequate meal counting and claiming
                    systems, and reviews those systems for accuracy and document the
                    implementation of corrective actions. Finally, the State agency must provide
                    the SFA with procurement training and conduct reviews necessary to ensure
                    the SFA adheres to Federal or State procurement requirements.




USDA/OIG-A/27010-0016-Ch                                                                   Page i
Agency
Response           In its response to the official draft dated November 14, 2003, FNS agreed
                   with all Recommendations Nos. 1 through 14. A summary of FNS’ response
                   to each recommendation can be found within the Findings and
                   Recommendations section of this report. The FNS response is included in its
                   entirety as exhibit D of this audit report.

OIG Position       Based on FNS’ response, we have reached management decisions on all
                   Recommendations Nos. 1 through 14. Requirements for Final Action are
                   listed under OIG Position for each recommendation within the Findings and
                   Recommendations section of the report.




USDA/OIG-A/27010-0016-Ch                                                               Page ii
Abbreviations Used in This Report


ADA                 Average Daily Attendance
FNS                 Food and Nutrition Service
FSIS                Food Safety and Inspection Service
NSLP                National School Lunch Program
OIG                 Office of Inspector General
SFA                 School Food Authority
USDA                United States Department of Agriculture




USDA/OIG-A/27010-0016-Ch                                      Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Table of Contents ...................................................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 2

    Section 1. Bellwood SFA’s Management and Monitoring of the NSLP........................................ 2

        Finding 1             SFA Could Not Support All Free and Reduced-Price Meal Claims ....................... 2
                                 Recommendation No. 1.................................................................................... 4
                                 Recommendation No. 2.................................................................................... 4
        Finding 2             SFA’s Milk Purchases Inconsistent with Providing a Nutritious Meal .................. 5
                                 Recommendation No. 3.................................................................................... 6
                                 Recommendation No. 4.................................................................................... 6
        Finding 3             More Effective Oversight Needed to Ensure Compliance with NSLP
                              Requirements........................................................................................................... 7
                                 Recommendation No. 5.................................................................................. 10
                                 Recommendation No. 6.................................................................................. 10
                                 Recommendation No. 7.................................................................................. 11
                                 Recommendation No. 8.................................................................................. 11

    Section 2. Bellwood SFA’s Procurement of Goods and Services ................................................. 13

        Finding 4             SFA’s Bid Proposal for Vended Meals Did Not Meet State or Federal
                              Requirements......................................................................................................... 13
                                 Recommendation No. 9.................................................................................. 15
                                 Recommendation No. 10................................................................................ 15
                                 Recommendation No. 11................................................................................ 16
        Finding 5             SFA Purchased Over $200,000 in Goods in Violation of State and Federal
                              Requirements......................................................................................................... 16
                                 Recommendation No. 12................................................................................ 18
                                 Recommendation No. 13................................................................................ 18
                                 Recommendation No. 14................................................................................ 19

Scope and Methodology........................................................................................................................ 20

Exhibit A – Summary of Monetary Results ....................................................................................... 21

USDA/OIG-A/27010-0016-Ch                                                                                                                    Page iv
Exhibit B – Enrollment and ADA of Schools Visited ........................................................................ 22
Exhibit C – Meal Counting Problems Observed on Day Of Our Visit During the Week of
            May 5, 2003 ...................................................................................................................... 23
Exhibit D – FNS’ Response to Draft Report ...................................................................................... 24




USDA/OIG-A/27010-0016-Ch                                                                                                               Page v
Background and Objectives
Background                   In 1946, Congress established the National School Lunch Program (NSLP) to
                             safeguard the health and well-being of the Nation’s children and to encourage
                             the domestic consumption of agricultural commodities.1 Administered by the
                             U.S. Department of Agriculture’s (USDA) Food and Nutrition Service
                             (FNS), the NSLP provides funding and donated commodities to the States in
                             order to benefit schools’ nonprofit food service.

                             Under written agreements with FNS, State agencies, typically State
                             Educational Departments, oversee the NSLP and assist school food
                             authorities (SFAs) in operating the program at the local level. Using FNS
                             funds, State agencies reimburse their SFAs monthly based on the number and
                             type of meals they claim. Although meals provided through the NSLP are
                             available to all students, some students are eligible to receive reduced-price
                             or free meals based on their family’s size and income level.

                             SFA oversight includes establishing menu plans, providing nutritious and
                             well-balanced meals that included milk, and conducting onsite reviews to
                             ensure that schools comply with NSLP requirements. Federal regulations
                             require each SFA to establish internal controls to ensure the accuracy of meal
                             counts prior to submitting claims for reimbursement. In addition, each SFA
                             must: 1) compare its schools’ daily meal counts against data that will assist in
                             identifying excessive claims; 2) annually perform at least one onsite review
                             of each school’s lunch counting and claiming system; and 3) promptly follow
                             up with corrective actions whenever the claims review process suggests the
                             likelihood of meal counting errors or other problems.

                             While Federal regulations allow SFAs to procure goods and services to
                             support their food service operations, they must ensure that any purchases
                             made with NSLP funds comply with Federal, State, and local procurement
                             requirements.

Objectives                   The objectives of this audit were to determine whether the Bellwood SFA’s
                             controls over the administration of the NSLP were sufficient. Specially, we
                             evaluated whether adequate meal accountability systems were in place at the
                             individual schools, and whether the SFA’s internal controls ensured that only
                             eligible students received free and reduced-price meals. In addition, we
                             reviewed the procedures for accounting and use of program funds relating to
                             SFA’s procurement of goods and services.


1
 Congress passed the National School Lunch Act (42 U.S.C. 1751) on June 4, 1946. The Act is now the Richard B. Russell
National School Lunch Act, as amended October 23, 2002.
USDA/OIG-A/27010-0016-Ch                                                                                      Page 1
Findings and Recommendations
Section 1. Bellwood SFA’s Management and Monitoring of the NSLP
ns




                                For school years 2002 and 2003, the SFA claimed that it served more than
                                600,000 meals to students at its seven schools, receiving over one million
                                dollars in Federal reimbursements. According to the SFA, about 65 percent
                                of the students were eligible to receive free or reduced-price meals, which
                                qualified the SFA to receive enhanced NSLP reimbursements.

                                During school years 2002 and 2003, however, the SFA did not adhere to
                                several important NSLP requirements. We found that the SFA over claimed
                                meals, did not ensure a nutritious meal for every eligible student, and its
                                schools’ meal counting systems did not yield accurate totals. We attributed
                                these violations to the SFA not understanding important NSLP requirements
                                regarding: the retention of free and reduced-price applications, the need to
                                serve a well-balanced and nutritious meal, and conducting effective oversight
                                reviews of its schools lunch service. As a result, we questioned the 71,911
                                meals claimed representing $136,138 in NSLP reimbursements.




Finding 1                       SFA Could Not Support All Free and Reduced-Price Meal Claims

                                From August 2001 through June 2003, the SFA claimed more free and
                                reduced-price meals than it could support. Federal regulations2 require SFAs
                                to maintain documentation substantiating student eligibility for free and
                                reduced-price meals and to compare each school’s daily meal count against
                                the product of the number of children eligible by category (free, reduced, and
                                paid) times the average daily attendance. Because the SFA did not keep all
                                student applications on file or compare the number of applications to the
                                number of meals claimed for reimbursement, it received excess Federal funds
                                totaling $136,138.

                                We reviewed the SFA’s procedures for obtaining and maintaining student
                                NSLP applications. Although the SFA’s procedures were not documented, it
                                was clear, through memorandums and discussions with SFA officials that
                                obtaining a student application was required in claiming a free or reduced-
                                price meal. In accordance with Federal regulations, the SFA required its
                                schools to collect from each student an application including the student’s
                                name, grade, and family size and income. If more than one child from the
                                same family applied, the SFA directed schools to make a copy of the family’s
                                application for each additional child.
2
     7 CFR 245.6 (e) and 7 CFR 210.8 (a)(3)
USDA/OIG-A/27010-0016-Ch                                                                               Page 2
                              Despite these requirements, we found that the SFA claimed more free and
                              reduced-price meals than the number of student applications maintained at all
                              but one of its seven schools. For school year 2002, we counted 808 free and
                              reduced-price applications at 4 of the 7 schools, but found they claimed an
                              average of 817 meals per day. The over claims increased dramatically in
                              school year 2003, with 6 of the 7 school claiming 1,357 meals per day while
                              maintaining only 1,268 free and reduced-price applications. Upon comparing
                              the number of applications to the average daily meal claim for these schools,
                              we found that, on average, the schools claimed about 49 meals per day more
                              than the number of applications on file. Our review disclosed that the six
                              schools had claimed 65,781 free and 6,130 reduced-price meals more than
                              they could support.3

                              We determined the dollar effect of the excess claims by multiplying the
                              number of over-claimed meals to the applicable reimbursement rate for each
                              school year as follows:

                              Meal Category          School Year 2002          School Year 2003
                              Free                          $2.11                     $2.16
                              Reduced-Price                 $1.71                     $1.76
                              Paid                          $0.22                     $0.22

                              Since the SFA could claim all meals as paid, we calculated the discrepancy
                              by multiplying the number of over-claimed meals by the applicable rate less
                              the paid rate. For example, the rate for free meals over-claimed in school year
                              2003 would be $2.16 less $0.22, or $1.94 for each meal. During school year
                              2002, the SFA over-claimed 17,667 free and 673 reduced-price meals, and it
                              over-claimed 48,114 free and 5,457 reduced-price meals the following year.
                              The over-claimed meals represented $34,393 in Federal reimbursements for
                              school year 2002 and $101,745 for school year 2003, totaling $136,138 in
                              excess reimbursements.

                              For school year 2002, the SFA could not explain why the number of
                              applications maintained by its schools did not correspond to the number of
                              meals claimed. However, a senior SFA official stated that, although obtaining
                              NSLP applications from students was a problem that year, applications were
                              a part of the SFA’s overall school registration process in school year 2003.

                              For school year 2003, SFA officials explained that the State agency had given
                              them the wrong NSLP applications, which they learned after they had already
                              distributed the forms to students. After recalling the first set of applications,
3
  To determine the total number of meals over-claimed for each month, we compared the total free and reduced-price meals
claimed to the maximum number of meals allowed. According to Federal regulations, the maximum number of meals
allowed is calculated by multiplying the total number of applications, by category, by a school’s average daily attendance
and number of serving days per month.
USDA/OIG-A/27010-0016-Ch                                                                                          Page 3
                   they were unable to get all of the corrected applications back from the
                   families. The SFA was not overly concerned because, according to a senior
                   SFA official, the State agency informed them that they needed to maintain
                   only 3 percent of the applications on file. However, the SFA officials to
                   whom we spoke could not name the State agency official who provided that
                   information nor could they produce documentation that collaborated the
                   assertion. State agency officials told us that they never asked any SFA to
                   recall applications in school year 2003 and that all applications must be kept
                   on file.

Recommendation No. 1

                   Require the State agency to collect $136,138 in excess reimbursements for
                   meals the SFA claimed but could not support.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and provided a bill for collection to the State agency. As of
                   November 10, 2003 the State agency submitted a request for payment to the
                   SFA for $136,138 in excess reimbursements. Prior to January 1, 2004, the
                   State agency must remit those funds to FNS.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, provide to the
                   OCFO the documentation necessary to prove that payment was received.

Recommendation No. 2

                   Require the State agency to ensure that the SFA collects and maintains an
                   application for each child whose meal was claimed as free and reduced-price
                   and that it compares those applications to the number of meals claimed.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and stated that a mandatory in-service training will be held
                   at the SFA before January 30, 2004, where the State agency will present key
                   regulatory requirements and publications to SFA staff. In addition, the State
                   agency will conduct a review during school year 2004 of all the SFA’s
                   schools to ensure applications are collected, maintained, and used in
                   comparing each school’s claim.




USDA/OIG-A/27010-0016-Ch                                                                  Page 4
                             OIG Position.

                             We accept FNS’ management decision. For Final Action, FNS needs to
                             provide the OCFO with the training agenda to ensure the application and
                             claim reviews processes were discussed.



Finding 2                    SFA’s Milk Purchases Inconsistent with Providing a Nutritious
                             Meal

                             The SFA offered milk as one of its meal components, but based on its milk
                             purchases; only 60 percent of the meals served could have contained a carton
                             of milk. A student does not have to take a carton of milk under offer versus
                             serve option of the enhanced food-based menu planning approach, but
                             schools must offer milk and ensure it provides a nutritious and well-balanced
                             meal.4 The State agency had cited the SFA in recent administrative reviews
                             for not meeting nutrition standards and not offering all the daily minimum
                             meal components. As a result, we question whether the nearly 30,000 meals
                             served without milk during school year 2003, met NSLP nutrition standards
                             and meal pattern requirements.

                             Out of the seven schools’ average daily enrollment of over 2,800 students, all
                             of whom were eligible to participate in the NSLP, we determined that, on
                             average, the SFA purchased only about 1,600 cartons of milk. This equates to
                             about 60 percent of the milk required to offer each eligible student one carton
                             of milk. We also determined that the SFA’s claim exceeded its milk
                             purchases by 29,641 meals for the period August 2002 through
                             February 2003. During that time, the SFA received Federal reimbursement
                             for 215,841 meals but purchased only 186,200 individual cartons of milk.
                             Considering that a well-balanced meal contains three servings from the milk
                             group per day,5 we questioned whether dietary guidelines were met when the
                             SFA did not purchase milk for 40 percent of its eligible students.

                             Serving nutritious and well-balanced meals was also a concern noted by the
                             State agency during its administrative and follow-up reviews conducted
                             during school years 1999 and 2000. During the administrative review, State
                             agency officials cited the SFA for not meeting nutrition standards or meal
                             pattern requirements. In the State agency’s follow-up to that review it cited
                             the SFA for not offering all the daily minimum required components, and
                             reiterated that a reimbursable lunch must offer a meat, two servings of
                             vegetables, grains, and milk in the required serving size.
4
 7 CFR 210.10 (a)(1) and (k)(6)
5
 Nutrition and Your Health: Dietary Guidelines for Americans, U.S. Food and Drug Administration Center for Food Safety
and Applied Nutrition, HHS/USDA Report, 1995, as amended 2000.
USDA/OIG-A/27010-0016-Ch                                                                                      Page 5
                   Overall, the SFA was unable to provide assurance that it was aware of the
                   requirements in what constituted a nutritious and well-balanced meal. We
                   discussed both the discrepancies in milk purchases and the results of our
                   observations at individual schools with SFA officials and school food service
                   personnel. SFA and school officials stated that they were not aware of what
                   constituted a reimbursable meal. In addition, based on the results of the
                   administrative reviews and the SFA’s milk purchases, there was a lack of
                   assurance that the SFA was aware whether they had met nutrition and meal
                   pattern requirements. Additional follow-up is needed to ensure the SFA
                   receives adequate technical assistance on its requirements in providing a
                   well-balanced and nutritious meal to students.

Recommendation No. 3

                   Require the State agency to perform a nutritional analysis at the SFA to
                   ensure that students are receiving well-balanced and nutritious meals.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and stated that a School Meals Initiative review will be
                   performed during the school year 2004. Based on the review results, the
                   State agency will provide the technical assistance necessary to the SFA staff
                   to ensure menus meet meal pattern and nutrient standard requirements.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the results of the School Meals Initiative review and
                   a list of the technical assistance provided.

Recommendation No. 4

                   Require the State agency to provide technical assistance to the SFA in
                   making purchasing decisions and methods to encourage students to take the
                   meal components necessary to meet dietary guidelines.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and stated that technical assistance will be provided to SFA
                   staff through a combination of the mandatory in-service training and the
                   School Meals Initiative review. The State agency will cover purchasing
                   decisions and methods the SFA can use to encourage students to take all the


USDA/OIG-A/27010-0016-Ch                                                                 Page 6
                   meal components to meet dietary guidelines. All training and reviews will be
                   completed by September 1, 2004.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the training agenda to ensure that purchasing
                   decisions and dietary guidelines were discussed.


Finding 3          More Effective Oversight Needed to Ensure Compliance with
                   NSLP Requirements

                   The SFA did not effectively review meal counting and claiming procedures at
                   its schools. Federal regulations 7 CFR 210.8 (a)(1-4) require SFAs to review
                   each school’s meal counting and claiming system and to ensure that schools
                   implement any necessary corrective actions within 45 days of the review. In
                   addition, Federal regulations 7 CFR 210.8(a)(3)(i) require SFAs to perform
                   edit checks, which involve a comparison of each school’s daily counts
                   against the number of students eligible, multiplied by an attendance factor.

                   Because the SFA had not established controls to ensure that the schools’
                   systems yielded accurate totals, over 60 meals were miscounted as
                   reimbursable in one serving day during our audit. Considering that there are
                   170 serving days per year, the SFA could have received excess
                   reimbursements of nearly $22,000 based on its historical claiming
                   percentages for free, reduced-price, and paid meals.

                   Edit Checks Not Performed

                   We found that the SFA did not evaluate each of its schools’ monthly meal
                   claims to determine the reasonableness of the amounts claimed. Using data
                   regarding enrollment, average daily attendance (ADA), and the highest
                   number of eligible students by category, the SFA should have been able to
                   detect unreasonable claims.

                   For example, if the SFA had reviewed each school’s data and performed the
                   necessary calculations, it would have found that six of its seven schools
                   claimed ADA percentages well below 90 percent, with one as low as
                   44 percent. This would mean that on average only 44 percent of its students
                   actually attended school. We re-calculated that school’s ADA percentage,
                   based on enrollment and attendance reports, and determined that it should
                   have reported a 91 percent ADA. We also re-calculated the SFA’s ADA for




USDA/OIG-A/27010-0016-Ch                                                                Page 7
                               all schools, using October 31 data,6 and determined that the average ADA
                               was between 94 and 95 percent for school years 2002 and 2003. However,
                               based on the schools’ calculations the SFA’s ADA was 82 and 75 percent for
                               school years 2002 and 2003, respectively. With such a low ADA percentage,
                               the schools’ meal claims exceeded the maximum amount of meals allowed.
                               Even though an SFA is required to investigate why a school would exceed
                               the maximum amount of meals allowed, this SFA’s oversight was ineffective
                               in ensuring a reasonable claim.

                               2003 Onsite Review Ineffective

                               Although the SFA did not perform an onsite review of each school during
                               school year 2002, it did evaluate the accuracy of schools’ meal counting and
                               claiming systems in 2003. The SFA’s review forms indicated that its meal
                               counting systems at most of the schools would yield accurate results.
                               However, our observations at each school during the week of May 5, 2003,
                               disclosed much different results.

                               Using a questionnaire similar to the one used by the SFA for its onsite
                               reviews in January 2003, we attended a meal service at each school. Identical
                               to the form found in the State agency’s NSLP Key Regulatory Requirements
                               and Sample Forms, our review form listed key questions designed to
                               determine whether a school’s meal counting and claiming system would
                               ensure accurate meal totals. We compared the results documented by the SFA
                               during its review to our own observations.


                                                                                  Number of                 Number of
                                       ONSITE REVIEW FORM
                                                                                 Schools SFA               Schools OIG
                                                                                 Documented                 Observed
                                   Questions Asked at All 7 Schools
                                                                                 Meeting This              Meeting this
                                                                                 Requirement               Requirement

                                 1. Are meal counts taken at the point
                                                                                        6                        5
                                    of service?
                                 2. Are only reimbursable meals
                                                                                        7                        3
                                    counted?
                                 3. Does the meal count system prevent
                                                                                        7                        5
                                    overt identification?
                                 4. Does the meal count system provide
                                                                                        4                        4
                                    an acceptable and accurate count?
                                 5. Are daily meal counts correctly
                                                                                        5                        4
                                    totaled and recorded?

                               As the above table indicates, the SFA recognized the same problems with the
                               internal controls used to ensure the accuracy of meal counts. Although the
6
 7 CFR 245.6a (a) states that verification activity shall be based on the number of approved applications on file as of
October 31.
USDA/OIG-A/27010-0016-Ch                                                                                             Page 8
                              SFA documented problems, it did not indicate whether schools had
                              implemented corrective actions. Based on our observations in May 2003, the
                              same schools continued to employ inadequate controls over its meal counting
                              systems.

                              A key control in ensuring an accurate meal counting system is to count each
                              meal at the end of the food service line, however, we observed an employee
                              at one school collecting a student’s meal ticket before they received a lunch.
                              At two other schools, children deposited tickets in a container at the end of
                              the line without a school official present to verify that the meals qualified as
                              reimbursable. The schools counted the number of tickets after the lunch
                              period. In both cases, school officials placed meal tickets from students
                              absent that day in the same container as students that received a meal.
                              Therefore, students that were absent on a particular day were counted as
                              receiving a meal and subsequently claimed for reimbursement. At another
                              school, an official at the end of the service line did not consider whether all
                              meal components were present before counting a meal as reimbursable.
                              Meals counted for reimbursement at this school included a single apple or a
                              slice of pizza.

                              In contrast, we counted reimbursable meals only if they met NSLP
                              requirements; that is, if they contained at least three menu items. We then
                              compared our count to the schools’ count for that day, and found that four of
                              the seven schools did not match our totals. At one school, we counted 217
                              reimbursable meals while the school counted 280, a 23 percent error. In total,
                              our observations of one day’s worth of meals at each school revealed a
                              discrepancy of 67 meals, which equates to a 4 percent error rate. (See exhibit
                              C). With 170 serving days, the SFA could over claim 11,390 meals per year.
                              Based on the SFA’s historical percentage of free, reduced-price, and paid
                              meals claimed, the SFA could receive $21,805 in excess reimbursements.

                              In addition to discrepancies in meal counts, two of the schools employed
                              procedures that overtly identified students who were eligible for free and
                              reduced-price meals.7 One of the schools identified eligible students through
                              a numbering system, while the other school labeled students eligible for free
                              meals with a blue ticket and reduced-priced eligible students with a pink
                              ticket.

                              According to an SFA official, the district was aware that it had been cited by
                              State agency and single audit reviews for non-compliance in conducting
                              onsite reviews. Although the SFA documented its review for school year
                              2003, it did not ensure that three of its schools implemented corrective
                              actions within the required 45 days and, in fact, had not remedied the

7
 These two schools’ procedures contradicted 7 CFR 245.8 (b) that states, there shall be no overt identification of any
children.
USDA/OIG-A/27010-0016-Ch                                                                                            Page 9
                   problems more than 90 days later. Even though the SFA had completed the
                   onsite review form, it had not established controls to ensure that schools
                   corrected the problems noted in a timely manner.

Recommendation No. 5

                   Require the State agency to ensure that the SFA reviews and corrects its
                   schools’ meal counting and claiming procedures to prevent them from
                   claiming non-reimbursable meals.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and stated that during the Coordinated Review Effort,
                   scheduled to be performed during school year 2004, the State agency will
                   ensure the SFA reviewed and corrected its meal counting and claiming
                   procedures to prevent over claiming of non-reimbursable meals. The State
                   agency will conduct additional reviews and training if their reviews indicates
                   continued problems with its meal counting and claiming process.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the results of the Coordinated Review Effort and the
                   additional training or reviews planned.

Recommendation No. 6

                   Require the State agency to provide comprehensive training to SFA and
                   school food service officials in utilizing school enrollment and attendance
                   data to assist in properly completing meal count edit checks.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and stated that after the mandatory in-service training, the
                   State agency will conduct a Coordinated Review Effort, scheduled to be
                   performed during school year 2004, and will ensure that SFA officials
                   properly use the meal count edit check procedure. The State agency will
                   conduct additional reviews and training if their reviews indicates continued
                   problems with completing the meal count edit check procedure.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the results of the Coordinated Review Effort

USDA/OIG-A/27010-0016-Ch                                                                 Page 10
                   regarding the meal count edit check procedure and the additional training or
                   reviews planned.

Recommendation No. 7

                   Require the State agency to ensure that the SFA establishes controls to
                   promptly follow up with its schools to ensure that corrective actions are
                   adequate and implemented in a timely manner.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and stated that through a combination of the mandatory in-
                   service training and Coordinated Review Effort, the State agency will ensure
                   that the SFA established controls to promptly follow-up on corrective actions.
                   The State agency will conduct additional reviews and training if there was an
                   indication that problem with the SFA’s follow-up procedures still exists.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the results of the Coordinated Review Effort
                   regarding the SFA’s follow-up to corrective actions and the additional
                   training or reviews planned.

Recommendation No. 8

                   Require the State agency to review SFA operations to ensure that the SFA
                   implemented approved point of service methods and an adequate method to
                   identify and count students that are eligible to receive free or reduced-price
                   meals.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and stated that when the State agency conducts its
                   Coordinated Review Effort, it will ensure the SFA implemented approved
                   point of service methods in counting reimbursable meals. The State agency
                   will conduct additional reviews and training if their reviews indicates
                   continued problems with the SFA’s method to identify and count students
                   that are eligible to receive free and reduced-price meals.




USDA/OIG-A/27010-0016-Ch                                                                 Page 11
                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the results of the Coordinated Review Effort
                   regarding the SFA’s point of service methods and the additional training or
                   reviews planned.




USDA/OIG-A/27010-0016-Ch                                                              Page 12
Section 2. Bellwood SFA’s Procurement of Goods and Services

                   In school year 2002 and previous years, the SFA ran its own food service
                   operation and procured individual items from various suppliers. Beginning in
                   school year 2003, the SFA opted to contract with a for-profit company to
                   provide vended meals. In both years, the SFA violated state and Federal
                   requirements by using unauthorized procurement procedures.

                   In school year 2003, the SFA’s procurement of vended meal services
                   restricted competition by placing unreasonable and unnecessary requirements
                   on potential bidders. As a result, the SFA used food service funds to pay for
                   program meals that it could not ensure were provided at the lowest price. In
                   school year 2002, the SFA did not maintain necessary documents for
                   purchases it made in support of its food service program. In the two school
                   years combined, the SFA used over $600,000 in NSLP funds to pay what
                   may not have been the lowest responsive and responsible bidders.



Finding 4          SFA’s Bid Proposal for Vended Meals Did Not Meet State or
                   Federal Requirements

                   The SFA used a bid proposal for vended meal service which did not meet
                   Federal and State criteria in key areas, including bid bonding, the vendor’s
                   facility inspection procedures, and the vendor’s use of USDA-donated
                   commodities. By adding and omitting language, the SFA modified the State
                   agency’s prototype proposal in ways that restricted competition and violated
                   Federal and State procurement requirements. Furthermore, the SFA failed to
                   contact the State agency regarding the altered bid proposal. As a result, the
                   SFA entered into an inappropriate contract that required over $400,000 in
                   program funds to pay vendor costs and under-utilized about $4,000 in
                   USDA-donated commodities.

                   The SFA sought bids from for-profit firms to provide vended meals, but
                   retained responsibility for ensuring that food operations complied with NSLP
                   standards. Even though an SFA may develop its own bid proposal, with State
                   agency approval, the proposal must meet Federal and State requirements. In
                   particular, Federal standards forbid placing unreasonable requirements on
                   vendors and requiring excessive bonding in order to qualify to do business.

                   Bid Proposal Required Unreasonable Bonding and Facility Inspections

                   In its bid proposal, the SFA added a bid bond requirement of 10 percent,
                   double the limit set by the State agency. In addition, the proposal stated that a
                   vendor’s production facility must be owned and operated by the vendor and

USDA/OIG-A/27010-0016-Ch                                                                   Page 13
                             continuously inspected by the USDA “Food Safety and Quality Service.”8
                             We determined that the added requirements were both unreasonable and
                             restrictive because they eliminated vendors that leased their production
                             facilities. Additionally, according to Food Safety and Inspection Service
                             (FSIS) policies, only firms that slaughter meat and poultry can have an
                             inspector continually on its premises. Although FSIS inspects other types of
                             vendors, that type of inspection does not provide continuous monitoring of
                             vendors premises, but simply makes it subject to inspection.

                             Although one of the two vendors in attendance at the pre-bid meeting had
                             some type of FSIS inspection, it was not continuous. According to an agency
                             official, FSIS did not use the term continuous inspection. However, this term
                             was used by both the SFA in its proposal and by another SFA that used this
                             same vendor, who was eventually awarded the bid. The second vendor, that
                             did not have an FSIS inspected facility, asked the SFA for an amendment to
                             the bid proposal, specifically to remove the continuous inspection
                             requirement, the SFA refused. The second vendor then decided not to bid
                             since it could not meet the requirements in the SFA’s proposal.

                             Bid Proposal Forfeited Credit for USDA-Donated Commodities

                             Besides adding unreasonable requirements to its bid proposal, the SFA
                             omitted important State requirements related to USDA-donated commodities
                             used to prepare vended meals. Specifically, the SFA omitted language that
                             requires a vendor to pay all costs related to processing USDA-donated
                             commodities for use in vended meals. Since the bid proposal became the
                             contract for the vended meals, the SFA assumed responsibility for paying
                             processing costs. Although the SFA received credit for the value of USDA-
                             donated commodities used by the vendor, the vendor deducted its processing
                             costs from the credit. We calculated that the SFA should have received $561
                             for USDA-donated ground beef that the vendor used to prepare school meals.
                             However, the vendor deducted $313 in processing costs from the total value
                             of the beef, crediting the SFA only $248.

                             In addition to flaws with the contract itself, the SFA did not enforce the
                             contract term requiring the vendor to use USDA-donated commodities to the
                             fullest extent possible. In the vendor’s reply to the SFA’s bid proposal, it
                             agreed to use 14 different USDA-donated commodities, but through May
                             2003, the vendor used only one, the ground beef mentioned above. If the SFA
                             had ensured that the vendor used all of the commodities in inventory
                             according to the contract, it could have realized an additional $3,772 in
                             commodity credits. Including the $313 lost to processing costs, the SFA did
                             not receive benefit for over $4,085 in USDA-donated commodities.

8
  The SFA could not explain what the “Food Safety and Quality Service” was, but we later determined that they were
referring to USDA’s Food Safety and Inspection Service (FSIS).
USDA/OIG-A/27010-0016-Ch                                                                                       Page 14
                             Although SFA officials stated that they had the best interest of the district in
                             mind when developing the bid proposal, they admitted that they did not
                             contact the State agency for its approval. Instead, SFA officials explained that
                             they had developed the proposal based on proposals obtained from other
                             SFAs in the Chicago area.9 SFA officials said that they added the restrictive
                             portions, such as excessive bid bonding and continuous USDA inspection, in
                             order to benefit the district. However, by creating a bid proposal that did not
                             comply with Federal and State procurement requirements, the SFA could not
                             ensure that it had secured the lowest, qualified bidder to provide vended
                             meals at its schools.

Recommendation No. 9

                             Require the State agency to ensure that the contracts the SFA enters into meet
                             the terms listed in the State agency prototype, and the SFA does not extend
                             any contracts that do not meet Federal or State requirements.

                             Agency Response.

                             In its response dated November 14, 2003, FNS agreed with our
                             recommendation and the State agency will review, by December 15, 2003,
                             the SFA’s current vended meals contract for compliance with requirements.
                             If the State agency review discloses that, the contract does not meet
                             requirements it will work with and provide the technical assistance necessary
                             to meet Federal and State requirements.

                             OIG Position.

                             We accept FNS’ management decision. For Final Action, FNS needs to
                             provide the OCFO with the results of the State agency’s contract review and
                             the additional technical assistance planned.

Recommendation No. 10

                             Require the State agency to ensure that the SFA receives commodity credits
                             and that the vendor utilizes USDA-donated commodities to the fullest extent
                             possible in its lunch operations.

                             Agency Response.

                             In its response dated November 14, 2003, FNS agreed with our
                             recommendation and stated that by December 15, 2003, the State agency will
                             contact the SFA to obtain all documents necessary to confirm that the SFA
9
 When we asked SFA officials to identify the USDA “Food Safety and Quality Service,” they were unable to do so
because they had copied the name from another SFA’s bid proposal.
USDA/OIG-A/27010-0016-Ch                                                                                    Page 15
                   received proper commodity credits and the vendor is fully utilizing USDA-
                   donated commodities. If their desk review indicates continued problems, the
                   State agency will provide the SFA with additional training and expand the
                   scope of its review.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the results of the State agency’s document review of
                   commodity credits and the additional amounts sought from the vendor.

Recommendation No. 11

                   Require the State agency to provide the SFA with the procurement
                   requirements and to reinforce the SFA’s responsibilities in entering into
                   procurement actions using program funds.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and stated that a mandatory in-service training will be held
                   at the SFA, where the State agency will present key regulatory requirements
                   and publications to SFA staff. These requirements and publications will
                   include resource material and reinforce the SFA’s responsibilities in entering
                   into procurement actions with program funds.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the training agenda to ensure that procurement and
                   SFA responsibilities in procuring goods and services with program funds
                   were discussed.



Finding 5          SFA Purchased Over $200,000 in Goods in Violation of State and
                   Federal Requirements

                   During school year 2002, the SFA operated its own food service, meaning
                   that it purchased food and other items served to students using program
                   funds. In that year, the SFA procured the majority of its food service items
                   from a single supplier, using $225,995 in school food service funds without
                   adhering to State and Federal procurement requirements.




USDA/OIG-A/27010-0016-Ch                                                                 Page 16
                               Federal procurement regulations10 require SFAs to publicly advertise and
                               solicit bids, to publicly open sealed bids, and to award contracts in writing to
                               the lowest responsive and responsible bidder. The State’s procurement
                               standards also require SFAs to maintain written selection procedures.
                               According to both Federal and State requirements, SFAs must maintain
                               sufficient documentation to support any of their procurement actions that
                               involve over $100,000 in Federal funds.

                               During our review in May 2003, we found that the SFA had not maintained
                               significant documentation to support applicability of its procurement actions,
                               including the major contract noted above. Federal procurement regulations11
                               require an SFA to retain all pertinent documents for a period of three years.
                               Since the SFA procured services for school year 2002, the SFA should have
                               retained documents such as advertisements requesting bids, school board
                               meeting minutes approving the winning bid, the written bid award to the
                               supplier, and the suppliers’ responses for both the accepted and rejected bids.
                               Based on this lack of documentation, we requested the SFA’s written
                               procurement procedures to determine if they coincided with Federal and State
                               requirements. The SFA stated that it had procedures, but they were not
                               documented in writing.

                               In 1999, the SFA was cited for not having written procurement procedures
                               during a State agency administrative review. The administrative review
                               noted that the SFA had not established procedures for making purchases in
                               excess of $10,000 and did not maintain records that detailed the procurement
                               procedures that were followed. In August 1999, the SFA responded to the
                               State’s procurement finding, and stated that written procurement procedures
                               will be established during the current month. However, during our review in
                               May 2003, we found the SFA had neither established written procurement
                               procedures, nor maintained adequate documentation to support its history of
                               procurement.

                               According to an SFA official, the SFA made its major purchases through the
                               sealed bid process, which involved announcement of bids in the newspaper,
                               public opening of the bids, and approval of the selected bid by the school
                               board. Although we repeatedly requested documents to back up the
                               procurement practices SFA claimed it exercised, SFA officials were unable to
                               provide them. Without supporting documentation, we were unable to
                               determine if the SFA had properly solicited, reviewed, and awarded its
                               contracts. Considering the SFA’s history in not complying with promised
                               corrective actions, additional training and reviews are needed to ensure the
                               SFA adheres to procurement requirements.


10
     7 CFR 3016.36 (d)(2)
11
     7 CFR 3016.42 (a) through (c)
USDA/OIG-A/27010-0016-Ch                                                                              Page 17
Recommendation No. 12

                   Require the State agency to provide the SFA with training on both Federal
                   and State procurement requirements.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and stated that a mandatory in-service training will be held
                   at the SFA, where the State agency will present key regulatory requirements
                   and resource material on conducting both Federal and State procurement
                   actions with program funds.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the training agenda to ensure that procurement and
                   SFA responsibilities in procuring goods and services with program funds
                   were discussed.

Recommendation No. 13

                   Require the State agency to ensure that the SFA develops and implements
                   written procurement procedures that include the establishment of controls in
                   maintaining documentation in compliance with Federal or State requirements.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and the State agency will request, by December 15, 2003,
                   that the SFA submit written procurement procedures for review. In addition,
                   the State agency will ensure, during its Coordinated Review Effort, that the
                   SFA implemented those procurement procedures. If the State agency review
                   discloses that the procedures were not implemented, it will provide SFA
                   officials with additional training and follow-up reviews will be scheduled.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the results of the State agency’s review of the SFA’s
                   procurement procedures and the additional training or reviews planned.




USDA/OIG-A/27010-0016-Ch                                                               Page 18
Recommendation No. 14

                   Require the State agency to provide the necessary follow-up reviews to
                   ensure that the SFA implements timely corrective actions.

                   Agency Response.

                   In its response dated November 14, 2003, FNS agreed with our
                   recommendation and the State agency will ensure, during its Coordinated
                   Review Effort, that the SFA implemented timely corrective actions. If the
                   State agency review discloses that the timely corrective actions were not
                   implemented, it will provide SFA officials with additional training and
                   follow-up reviews will be scheduled.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to
                   provide the OCFO with the results of the Coordinated Review Effort
                   regarding the SFA’s implementation of corrective actions and the additional
                   training or reviews planned.




USDA/OIG-A/27010-0016-Ch                                                              Page 19
Scope and Methodology

                   We performed our audit fieldwork during April and May 2003 at the
                   Bellwood SFA, District 88, located in Bellwood, Illinois. Additional
                   fieldwork was performed in August 2003 to obtain the balance of SFA’s
                   claims submitted for March through June 2003. The SFA was selected for
                   review based on significant problems noted in both the State agency’s
                   administrative review and A-133 Single Audit reports.

                   We performed our review at the SFA and conducted site visits to all seven of
                   its schools that participated in the NSLP. (See exhibit B.) We initially
                   reviewed the SFA’s operations for school year 2003, but expanded our
                   review to include school year 2002 based on concerns disclosed during
                   fieldwork.

                   The audit was conducted in accordance with Generally Accepted
                   Government Auditing Standards. To accomplish our objectives we:

                      •    Reviewed regulations, policies, and procedures governing the NSLP;
                      •    Interviewed FNS regional and State agency officials to obtain an
                           overview of the NSLP operation in Illinois and identify any specific
                           concerns or program issues;
                      •    Reviewed the results of both the State agency’s administrative review
                           and A-133 Single Audit coverage to determine which SFA to review;
                      •    Counted the number of free and reduced-price applications
                           maintained by the SFA and compared that total to its monthly claims
                           for school years 2002 and 2003 to determine any over-claim amounts;
                      •    Evaluated the SFA’s onsite review and follow-up procedures for its
                           schools’ meal accountability systems to determine whether internal
                           controls were established and functioning;
                      •    Examined accounting records to ensure that the SFA’s internal
                           controls were sufficient to ensure proper use of program funds;
                      •    Reviewed and evaluated the SFA’s purchases of goods and services to
                           ensure that its procurement practices facilitated open and free
                           competition and resulted in the best price; and
                      •    Performed site visits to the SFA’s seven schools that operated under
                           the NSLP to determine whether adequate meal accountability systems
                           were in place.




USDA/OIG-A/27010-0016-Ch                                                                Page 20
Exhibit A – Summary of Monetary Results
                                                               Exhibit A – Page 1 of 1




FINDING
              DESCRIPTION        AMOUNT           CATEGORY
NUMBER
          Unsupported NSLP                   Questioned Costs:
   1                              $136,138
          Meals Claimed by SFA               Recovery Recommended
                                           Funds To Be Put To Better
          USDA Donated
                                           Use: Management or
   4      Commodities Not Used      $4,085
                                           Operating Improvement
          to Benefit SFA
                                           Savings
            TOTAL
                                  $140,223




USDA/OIG-A/27010-0016-Ch                                                    Page 21
Exhibit B – Enrollment and ADA of Schools Visited
                                                                            Exhibit B – Page 1 of 1




                        School Year 2002                      School Year 2003
                                No. of
                                                                 No. of Applications
                             Applications
                                                                  Counted by OIG
                           Counted by OIG
  SCHOOL                          Reduced-                                Reduced-
   NAME         ENROLLMENT Free      Price   ADA   ENROLLMENT    Free       Price       ADA
Grant               595     265       93     96%       611       228         76         97%
Lincoln
Elementary          355      255     40      95%      334         287         28         95%
Lincoln
Primary             168      89      40      94%      154          67         21         93%
McKinley            510      312     54      94%      508         306         14         94%
Thurgood
Marshall            397      185     28      92%      261         143         40         96%
Wilson
Elementary          303      119     52      92%      224         45          13         95%
Roosevelt Jr.
High                562      277     70      92%      695         335        127         95%
ENTIRE
DISTRICT           2,890    1,502   377      94%      2,787      1,411       319         95%


   ADA = Average Daily Attendance




USDA/OIG-A/27010-0016-Ch                                                                 Page 22
Exhibit C – Meal Counting Problems Observed on the Day of Our Visit During
                          the Week of May 5, 2003
                                                                                                    Exhibit C – Page 1 of 1



                              Eligible     Number of Meals
                Meals          Meals        School Count
     School   Counted by      Counted        Exceeded
     Name       School         by OIG        OIG Count                        Problems Noted
Grant             429            429                 -                               None
Lincoln
Elementary        284            284                 -                               None
Lincoln                                                              Counted Tickets Instead of Actual
Primary           127            128                -12                   Student Meals Served
McKinley
                  335            332                 3                  Counted Incomplete Meals
                                                                 Counted Tickets Instead of Actual Student
Thurgood                                                           Meals Served / Tickets from Absentee
Marshall                                                          Students Co-Mingled with Lunch Count /
                  192            191                113                 Counted Incomplete Meals
Wilson                                                                Tickets from Absentee Students
Elementary        180            184                -14                Co-Mingled with Lunch Count
Roosevelt
Jr. High          280            217                63                   Counted Incomplete Meals

     TOTALS      1,827          1,765               67




12
   School’s count was less than OIG count by one meal. This school did not count meals at point of service, and therefore
did not ensure every meal counted contained all components required for a reimbursable meal.
13
   Of the 192 meals the school counted, 34 meals did not contain milk as one of its components.
14
   School’s count was less than OIG count by four meals.
USDA/OIG-A/27010-0016-Ch                                                                                         Page 23
Exhibit D – FNS’ Response to Draft Report
                                            Exhibit D – Page 1 of 5




USDA/OIG-A/27010-0016-Ch                                 Page 24
USDA/OIG-A/27010-0016-Ch   Page 25
USDA/OIG-A/27010-0016-Ch   Page 26
USDA/OIG-A/27010-0016-Ch   Page 27
USDA/OIG-A/27010-0016-Ch   Page 28
Informational copies of this report have been distributed to:

Agency Liaison Officer (3)
General Accounting Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division (1)
OIG Headquarters
 Director, AFD (2)
 OIG File Copy (1)
